   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




May 27, 2010

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Health Resources and Services Administration’s Bureau of Clinician Recruitment
               and Service – Internal Control Review of the Process for Awarding American
               Recovery and Reinvestment Act Funds (A-03-09-00372)


The attached final report provides the results of our review of internal controls over the process
for awarding American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery
Act), funds at the Health Resource Services and Administration’s Bureau of Clinician
Recruitment and Service. This review was part of the Office of Inspector General’s assessment
of whether the Department of Health & Human Services is using Recovery Act funds in
accordance with legal and administrative requirements and is meeting the accountability
objectives defined by the Office of Management and Budget.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-03-09-00372 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




     HEALTH RESOURCES AND
   SERVICES ADMINISTRATION’S
BUREAU OF CLINICIAN RECRUITMENT
     AND SERVICE – INTERNAL
     CONTROL REVIEW OF THE
     PROCESS FOR AWARDING
    AMERICAN RECOVERY AND
    REINVESTMENT ACT FUNDS


                        Daniel R. Levinson
                         Inspector General

                            May 2010
                          A-03-09-00372
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




     HEALTH RESOURCES AND
   SERVICES ADMINISTRATION’S
BUREAU OF CLINICIAN RECRUITMENT
     AND SERVICE – INTERNAL
     CONTROL REVIEW OF THE
     PROCESS FOR AWARDING
    AMERICAN RECOVERY AND
    REINVESTMENT ACT FUNDS


                        Daniel R. Levinson
                         Inspector General

                            May 2010
                          A-03-09-00372
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation's infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the Department of Health &
Human Services (HHS) and its agencies are:

   •   Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

   •   Recovery Act funds are transparent to the public, and the public benefits of these funds are
       reported clearly, accurately, and in a timely manner.

   •   Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

   •   Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

   •   Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and requires that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Health Resources and Services Administration

The Health Resources and Services Administration (HRSA) is charged with increasing access to
basic health care for those who are medically underserved. HRSA implements its programs
through its 6 bureaus and 13 offices. The Office of Federal Assistance Management (OFAM)
provides assistance and oversight to the bureaus. The bureaus, in conjunction with OFAM,
establish goals and policies for the programs and activities applicable to the administration of the
programs. The Bureau of Clinician Recruitment and Service (BCRS) supports students and
clinicians by offering scholarship and educational loan repayment opportunities in exchange for
commitments to serve in Health Professional Shortage Areas.

                                                 i
Recovery Act Funding to Address Shortages in the Health Professions Workforce

The Recovery Act provides $2.5 billion to HRSA to help stimulate the economy through the
support of health care access for the underserved. Of the $2.5 billion, $2.0 billion was
appropriated to support, modernize, and renovate health centers. The remaining $500 million
was appropriated to address the workforce shortage of health professionals.

Of the $500 million that the Recovery Act provided to address workforce shortage, HRSA
apportioned $302 million to the BCRS. BCRS is using the Recovery Act funding to provide
scholarship and loan repayment awards directly to individuals entering or in the health care
professions.

OBJECTIVE

Our objective was to assess the internal controls HRSA has in place over the process used by
BCRS to award Recovery Act funds for scholarships and loan repayments directly to health
professionals to determine whether the controls have been suitably designed.

SUMMARY OF RESULTS

The internal controls over the process used to award BCRS’s Recovery Act funds, as described
by HRSA and BCRS management, are suitably designed to provide reasonable assurance that the
specified internal control objectives would be achieved if the described internal controls were
complied with satisfactorily and applied as designed.

This report provides a sufficient understanding of HRSA’s process for awarding Recovery Act
funds as it pertains to control objectives in the following internal control areas: authorization
and approval; accuracy, completeness, and validity; physical safeguards and security; error
handling; and segregation of duties.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Recovery Act Requirements ........................................................................1
              Health Resources and Services Administration ...........................................1
              Bureau of Clinician Recruitment and Service .............................................2
              Recovery Act Funding to Address Shortages in the Health Professions
               Workforce .................................................................................................2
              Health Resources and Services Administration’s Scholarship and
               Loan Repayment Award Process .............................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................3
               Objective ......................................................................................................3
               Scope ............................................................................................................3
               Methodology ................................................................................................4

RESULTS OF REVIEW ...................................................................................................4

          AUTHORIZATION AND APPROVAL .................................................................5
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Scholarship and Loan Repayment Eligibility
                Requirements Are in Accordance With Laws, Regulations, Recovery
                Act Guidance, and Agency Policy ............................................................5
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Adjustments to Accounts Are Authorized in
                Accordance With Policy ...........................................................................6
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance for Tracking Scholarship and Loan Repayment
                Requirements ............................................................................................6

          ACCURACY, COMPLETENESS, AND VALIDITY............................................7
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an Economical
                and Efficient Manner ................................................................................7
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Procedures Used to Review, Process, and Report
                Scholarship and Loan Repayment Related Transactions Are
                Efficient.....................................................................................................7




                                                                    iii
          Internal Control Objective 3: Internal Controls Provide Reasonable
            Assurance That Only Scholarship Applications and Loan Repayment
            Requests That Meet the Eligibility Requirements Are Approved ............7
          Internal Control Objective 4: Internal Controls Provide Reasonable
            Assurance That Loan Repayment Documents Are Approved
            and Signed by the Borrower Before Funds Are Disbursed.......................8
          Internal Control Objective 5: Internal Controls Provide Reasonable
            Assurance That Accountability for Service Time Is Established Before
            Funds Are Disbursed.................................................................................8
          Internal Control Objective 6: Internal Controls Provide Reasonable
            Assurance That Scholarship and Loan Repayment Transactions and
            Related Adjustments Will Be Accurately Applied to the Proper
            Account .....................................................................................................8
          Internal Control Objective 7: Internal Controls Provide Reasonable
            Assurance That Institutions/Employers Provide Accurate and
            Timely Information on Scholars/Employees Who Drop Out of the
            Programs ...................................................................................................9

PHYSICAL SAFEGUARDS AND SECURITY.....................................................9
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Scholarship and Loan Repayment
       Information Is Permitted Only in Accordance With Policy......................9

ERROR HANDLING ..............................................................................................9
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That Changes to Application Packages Are Minimized .........9

SEGREGATION OF DUTIES ..............................................................................10
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual Both To Cause and
       Conceal Errors Are Reduced ..................................................................10




                                                          iv
                                                INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health & Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on our economic recovery must be subject to unprecedented levels of
transparency and accountability.

The five crucial objectives for HHS and its agencies are:

       •   Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
           manner.

       •   Recovery Act funds are transparent to the public, and the public benefits of these funds
           are reported clearly, accurately, and in a timely manner.

       •   Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

       •   Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

       •   Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Health Resources and Services Administration

The Health Resources and Services Administration (HRSA) is charged with increasing access to
basic health care for those who are medically underserved. HRSA establishes policies over its
award processes and provides standard terms and conditions for each type of program. HRSA

1
    Available online at http://www.hhs.gov/recovery/reports/index.html, accessed on April 9, 2010.

                                                           1
implements its programs through its six bureaus and 13 offices, which provide leadership and
financial support to health care providers through a wide range of programs and initiatives
designed to safeguard the health and well-being of the Nation’s most vulnerable populations.

HRSA programs are legislatively authorized by Congress. The legislation defines the purpose
and provides appropriations for these programs. The Office of Federal Assistance Management
(OFAM) provides assistance and oversight to the bureaus. The bureaus, in conjunction with
OFAM, establish goals and policies for the programs and activities applicable to the
administration of the programs.

Bureau of Clinician Recruitment and Service

The Bureau of Clinician Recruitment and Service (BCRS) supports students and clinicians
through its National Health Service Corps (NHSC) Scholarship Program and NHSC Loan
Repayment Program, and Nursing Education Loan Repayment Program in exchange for
commitments to serve in Health Professional Shortage Areas. 2 BCRS also supports the
development of faculty to train the next generation of health care professionals through its
Faculty Loan Repayment Program and provides technical assistance and support for HRSA
grantees, other safety net providers, 3 and facilities with critical nursing shortages to develop
effective recruitment and retention programs in their communities.

Recovery Act Funding to Address Shortages in the Health Professions Workforce

The Recovery Act provides $2.5 billion to HRSA to help stimulate the economy through the
support of health care access for the underserved. Of the $2.5 billion, $2.0 billion was
appropriated to support, modernize, and renovate health centers. The remaining $500 million
was appropriated to address workforce shortages of health professionals.

Of the $500 million that the Recovery Act provided to address workforce shortages, HRSA
apportioned $302 million to the BCRS. 4 BCRS is using the Recovery Act funding to provide
scholarship and loan repayment awards directly to individuals entering or in the health care
professions. Scholarships may cover the cost of tuition, fees and other reasonable education
costs, and a monthly support stipend. Loan repayments cover qualifying preexisting loans for
similar health education costs. Recipients agree to provide two years of health care service to the
medically underserved.


2A Health Professional Shortage Area is defined in 42 U.S.C. 254e to include a geographic area, facility, or a
population group, which the Secretary of Health & Human Services has determined to have a shortage of health
professionals.

3Safety net providers deliver a significant level of health care to uninsured, Medicaid, and other vulnerable
patients.

4 We reviewed the awarding process of the Bureau of Health Professions in a separate report, Health Resources and

Services Administration’s Bureau of Health Professions — Internal Control Review of the Process for Awarding
American Recovery and Reinvestment Act Funds (A-03-09-00362).


                                                          2
This review, one in a series of reviews of HRSA’s internal controls over the process used to
award Recovery Act funds, addresses BCRS’s award processes for programs in the health
professions. Programs funded by the Recovery Act and administered by BCRS are designed to
increase public access to affordable primary health care by providing an incentive to primary
health care clinicians and students to serve in Health Professional Shortage Areas.

Health Resources and Services Administration’s Scholarship and
Loan Repayment Award Process

Students and health care professionals applying for scholarships or loan repayment must submit
applications online at the NHSC website, www.nhsc.hrsa.gov. The BCRS uses its own
information management system to accept and manage the applications electronically. BCRS
makes awards through contracts signed by the applicant and the HHS Secretary designee. In the
contracts, applicants agree to accept a scholarship or repayment of health profession educational
loans and to serve for a prescribed period of obligated service.

OFAM provides guidance relating to the laws, regulations, and policies pertinent to the
administration of HRSA grants and scholarships and loan repayment awards. OFAM conducts
operational planning, review, awarding, and management of HRSA’s portfolio of grants and
awards. Within OFAM, there are four divisions: Division of Financial Integrity, Division of
Grants Policy, Division of Grants Management Operations, and Division of Independent Review.
Each division has standard operating procedures.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls HRSA has in place over the process used by
BCRS to award Recovery Act funds for scholarships and loan repayments directly to health
professionals to determine whether the controls have been suitably designed.

Scope

We assessed HRSA’s internal controls over the process used by BCRS to award Recovery Act
funds in the form of scholarship and loan repayment awards directly to health professionals. Our
assessment was limited to determining whether existing controls adequately achieved the control
objectives for (1) authorization and approval; (2) accuracy, completeness, and validity; (3)
physical safeguards and security; (4) error handling; and (5) segregation of duties.

We did not perform procedures to determine the operating effectiveness of these controls.
Accordingly, we express no opinion on the operating effectiveness of any aspects of HRSA’s
internal controls over the process that BCRS used to award Recovery Act funds, individually or
in the aggregate.

We performed fieldwork at HRSA offices in Rockville, Maryland, from June through August
2009.

                                                3
Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing, or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of BCRS’s internal control environment, we:

   •   reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
       by OMB, that BCRS must follow for awarding scholarships and loan repayment
       assistance;

   •   reviewed HRSA’s organizational structure, including segregation of functional
       responsibilities, policy statements, operating manuals, and personnel policies;

   •   reviewed HRSA’s spending and implementation plans for financial support of health
       professionals’ training and education;

   •   reviewed BCRS’s Application Information Bulletins (Bulletins) for the NHSC
       Scholarship Program, NHSC Loan Repayment Program, Nursing Education Loan
       Repayment Program, and Faculty Loan Repayment Program;

   •   reviewed HRSA’s Fiscal Year 2008 Improper Payments Information Act Risk
       Assessment (risk assessment);

   •   interviewed HRSA and BCRS management, as well as operations, administrative, and
       other personnel responsible for developing, assuring adherence to, and applying internal
       controls; and

   •   reviewed the scholarship and loan repayment award process, for four awards to gain an
       understanding of the award process.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                                   RESULTS OF REVIEW

The internal controls over the process used to award BCRS’s Recovery Act funds, as described
by HRSA and BCRS management, are suitably designed to provide reasonable assurance that the
specified internal control objectives would be achieved if the described internal controls were
complied with satisfactorily and applied as designed.

This report provides a sufficient understanding of HRSA’s process for awarding Recovery Act
funds as it pertains to control objectives in the following internal control areas:

                                                4
   •   authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

   •   accuracy, completeness and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

   •   physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

   •   error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

   •   segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.

AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Scholarship and Loan Repayment Eligibility Requirements Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

   •   BCRS’s policy is to award scholarships or repayments of qualifying loans for educational
       costs to applicants who wish to pursue training or practice in health care disciplines and
       specialties most needed to deliver quality primary health care and who agree to serve for
       a stipulated period in a medically underserved area. Each scholarship and loan
       repayment program has its own set of eligibility and service requirements.

   •   BCRS’s policy is to prepare guidance in the form of Bulletins to advise applicants about
       the requirements for scholarship and loan repayment programs. Bulletins include
       application forms and other documentation requirements.

   •   HRSA policy states that guidance is sent to the Office of General Council for review and
       comment and that guidance for Recovery Act funds are also sent to OMB for approval.

   •   HRSA’s policy is to publish application requirements on HRSA’s website. BCRS
       announces the opening of application cycles at www.nhsc.hrsa.gov, and on its email list,
       which applicants may join at the website to receive announcements. List subscribers may
       also recommend potential applicants. For both scholarship and loan repayment program
       awards, applications are accepted at www.nhsc.hrsa.gov. Scholarship applications
       undergo an objective review by expert reviewers, based on specific published criteria.
       For the loan repayment programs, applications are assigned funding preferences based on
       specific criteria published in the bulletins to determine the sequential order in which
       qualified applicants are considered for awards.

                                                5
   •   BCRS policy is to include the obligations for scholarships or loan repayments in its
       contracts with applicants. Both scholarship and loan repayment contracts provide for
       eligibility requirements, including service provisions. Federal regulations establish
       eligibility requirements for the NHSC Scholarship Program (42 CFR § 62.3), the NHSC
       Loan Repayment Program (42 CFR § 62.24), and the Nursing Education Loan
       Repayment Program (42 CFR § 57.312). Federal statute details the eligibility
       requirements for the Faculty Loan Repayment Program (42 U.S.C. § 293b(a)).

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Adjustments to Accounts Are Authorized in Accordance With Policy

   •   BCRS requires that, prior to the award of scholarships or loan repayments, applicants
       submit their personal banking information electronically, through the Bureau of Clinician
       Recruitment and Service Information System (BCRSIS). For scholarships, BCRS uses
       applicant banking information to pay stipends to the awardees and pays tuition and fee
       reimbursements directly to the schools based on invoices that the schools are required to
       provide to BCRS.

   •   HRSA policy is that only HRSA’s staff can enter any relevant changes to the electronic
       banking information once it has been submitted through BCRSIS. If changes occur,
       applicants must complete a Banking Update Form and mail it to HRSA.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance for
Tracking Scholarship and Loan Repayment Requirements

   •   BCRS’s policy is to require that, prior to the award of scholarships or loan repayments,
       applicants must certify that they are not presently debarred, suspended, excluded, or
       disqualified from participation in covered transactions by any Federal agency pursuant to
       2 CFR §180.335, as implemented by 2 CFR pt.376.

   •   BCRS’s policy is that contracts include “Breach of Contract” provisions that contain
       remedies the Federal Government will use if an applicant fails to complete the statutory
       and contractual obligations listed in the contract. By signing the contract, the applicant
       certifies that the information given in the application is accurate and complete to the best
       of his or her knowledge and belief. Applicants are made aware that any false statement
       may be punished as a felony under U.S. Code, Title 18, Section 1001 and may subject
       them to civil penalties under the Program Fraud Civil Remedies Act of 1986 (31 U.S.C.
       §§ 3801- 3812, as implemented by Federal regulations (45 CFR pt. 79)).




                                                 6
ACCURACY, COMPLETENESS, AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

    •    HRSA requires that, prior to the award of a scholarship, applications be reviewed for
         eligibility and scored by an independent panel of reviewers. The scored applications are
         then used to create a Rank Order List.

    •    BCRS awards loan repayments to qualified applicants according to the funding policies
         of each program. For the NHSC Loan Repayment program, qualified applicants with a
         disadvantaged background or Exceptional Financial Need status will be funded without
         regard to Health Professional Shortage Area score 5 and all other applicants who practice
         in a Health Professional Shortage Area are ranked based on their facilities’ Health
         Professional Shortage Area score. Other BCRS loan repayment programs have similar
         policies.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used to Review, Process, and Report Scholarship and Loan Repayment
Related Transactions Are Efficient

    •    BCRS requires that all applications for scholarships or loan repayments be submitted
         electronically through HRSA’s website at www.nhsc.hrsa.gov. Banking information
         must be submitted electronically through BCRSIS.

    •    HRSA requires that submitted applications undergo checks to ensure that no viruses are
         attached to the applications.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That Only
Scholarship Applications and Loan Repayment Requests That Meet the Eligibility
Requirements Are Approved

    •    BCRS policy is to conduct an eligibility and completeness review of applications prior to
         the award of scholarships or loan repayments. Reviewers processing applications
         complete a checklist which lists the application requirements that reviewers need to
         determine if an application is complete and if the applicant is eligible. For example, the
         NHSC Loan Repayment Program reviewers check documentation to ensure that
         applicants meet the requirements by reviewing: (1) citizenship, (2) licenses, (3) site
         award letters, (4) Excluded Parties List System, (5) credit reports, (6) loan verification
         forms, (7) employment verification forms, (8) Bureau of Health Care Delivery and


5 HHS gives each Health Professional Shortage Area a score to rank its need for providers relative to other Health

Professional Shortage Areas. The Health Professional Shortage Area score is based on a 1 to 25 scale where the
highest scores translate to greatest need. A Health Professional Shortage Area score is based on criteria that include
practitioner-to-population ratios for primary medical care, dental, and mental health providers.


                                                          7
        Assistance Network (BHCDANET) screens, 6 and (9) the National Practitioner Data
        Bank and the Healthcare Integrity and Protection Data Bank. 7

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Loan
Repayment Documents Are Approved and Signed by the Borrower Before Funds Are
Disbursed

    •   BCRS policy is that all applicants must submit, prior to the award of scholarships or loan
        repayments, an application, all required supporting documentation and forms, banking
        information, and a signed contract before funds are obligated.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Accountability for Service Time Is Established Before Funds are Disbursed

    •   BCRS policy is to ensure that, prior to the award of scholarships or loan repayments,
        contracts contain applicant obligation clauses which specify the service-time
        requirements.

Internal Control Objective 6: Internal Controls Provide Reasonable Assurance That
Scholarship and Loan Repayment Transactions and Related Adjustments Will Be
Accurately Applied to the Proper Account

    •   BCRS policy for the NHSC Loan Repayment Program is that, prior to receiving an award,
        applicants must submit banking information electronically through BCRSIS. To update
        bank routing information, applicants must submit a Banking Update Form to HRSA.
        Only HRSA staff can enter the changes to electronic banking information. HHS uses this
        banking information to disburse periodic payments through electronic funds transfers to the
        participants’ checking or savings accounts identified on the banking information. HRSA
        submits a Payment Authorization Worksheet, matched to the obligation document
        number, which is used to set up monthly, quarterly, or lump sum payment. Awardees are
        required to submit verification that payments have been made.

    •   For scholarships, HRSA’s policy is to pay tuition and fees directly to the schools.
        Therefore, prior to award of a scholarship, BCRS verifies the applicant’s school and
        requires the school to send invoices directly to HRSA.




6BHCDANET is a database containing information collected from individual scholarship and loan repayment
applications, and recruiting and retention assistance applications and monitoring data from individual health
provider sites.

7The Healthcare Integrity and Protection Data Bank was established to combat fraud and abuse in health insurance
and health care delivery. It can provide detailed information on prior criminal or fraudulent behavior.

                                                         8
Internal Control Objective 7: Internal Controls Provide Reasonable Assurance That
Institutions/Employers Provide Accurate and Timely Information on Scholars/Employees
Who Drop Out of the Programs

   •   BCRS scholarship contracts require an annual verification of enrollment/good standing
       for in-school students receiving scholarship support and a 6-month verification of
       employment for in-service scholars carrying out their service obligations. The
       scholarship contracts also are required to include clauses that in-school scholars who fail
       to meet program requirements or in-service scholars who fail to complete their service
       obligations are placed in default of their contracts by BCRS’ Legal and Compliance
       Office, and are responsible for the payment of monetary damages specified in their
       contracts.

   •   BCRS loan repayment award contracts require participants to submit a service obligation
       verification form for each 6 months of service. The service obligation verification form
       must be completed, certified, and signed by the participant and an appropriate official at
       the approved site, who verifies the participant's compliance or noncompliance. Loan
       repayment awardees who fail to complete their service obligations or submit the required
       6-month employment verification forms are placed in default of their contracts by BCRS’
       Legal and Compliance Office, and are responsible for the payment of monetary damages
       specified in their contract.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Scholarship and Loan Repayment Information Is Permitted Only in Accordance
With Policy

   •   HRSA maintains an agencywide security program to safeguard and secure access to
       records. In its Fiscal Year 2008 risk assessment, HRSA formalized system security
       requirements for all its financial and nonfinancial systems. HRSA’s access controls
       include formal authorization, password requirements, and clearance levels. The risk
       assessment noted that HRSA also employs firewalls, intrusion detection systems, and
       anti-virus software at multiple tiers for information technology security. Finally the risk
       assessment noted that HRSA has developed an Information Systems Security Plan to
       evaluate and mitigate potential threats.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Changes to Application Packages Are Minimized

   •   Applicants may resubmit their applications to make corrections until the application
       deadline. HRSA’s policy does not allow applicants who have submitted their
       applications to correct errors and re-submit the correct information after the deadline has
       passed for applying for awards. Any applicant that fails to complete and submit all

                                                9
       required documents by the deadline will be considered ineligible and will not be
       considered for an award. It is the applicant’s responsibility to submit a complete
       application package.

SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual Both To Cause and Conceal Errors Are Reduced

   •   BCRS’s staff establishes or participates in the establishment of goals for programs and is
       responsible for developing program guidance.

   •   BCRS’s Associate Administrator’s Office, the Office of General Council, and OFAM
       review, provide comments, and sign off on BCRS guidance.

   •   OFAM is responsible for executing contracts and officially obligating funds. OFAM is
       independent of BCRS.




                                               10
